<html>
<title> - [H.A.S.C. No. 113-76] RELIGIOUS ACCOMMODATIONS IN THE ARMED SERVICES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-76] 
             RELIGIOUS ACCOMMODATIONS IN THE ARMED SERVICES

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 29, 2014

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
86-966                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dfaedf2ddfee8eee9f5f8f1edb3fef2f0b3">[email&#160;protected]</a>  
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman

WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
JOSEPH J. HECK, Nevada               ROBERT A. BRADY, Pennsylvania
AUSTIN SCOTT, Georgia                MADELEINE Z. BORDALLO, Guam
BRAD R. WENSTRUP, Ohio               DAVID LOEBSACK, Iowa
JACKIE WALORSKI, Indiana             NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
KRISTI L. NOEM, South Dakota
               Dave Giachetti, Professional Staff Member
                 Debra Wada, Professional Staff Member
                           Colin Bosse, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, January 29, 2014, Religious Accommodations in the 
  Armed Services.................................................     1

Appendix:

Wednesday, January 29, 2014......................................    23
                              ----------                              

                      WEDNESDAY, JANUARY 29, 2014
             RELIGIOUS ACCOMMODATIONS IN THE ARMED SERVICES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Magness, Reverend James B., Bishop Suffragan of the Armed Forces 
  and Federal Ministries, Washington National Cathedral..........     5
Penrod, Virginia S., Deputy Assistant Secretary of Defense for 
  Military Personnel Policy, Department of Defense...............     3
Tidd, RDML Mark L., USN, Chief of Navy Chaplains, U.S. Navy; 
  accompanied by BG Charles R. Bailey, USA, Deputy Chief of 
  Chaplains, U.S. Army, and Brig Gen Bobby Page, USAF, Deputy 
  Chief Chaplain, U.S. Air Force.................................     4

                                APPENDIX

Prepared Statements:

    Magness, Reverend James B....................................    46
    Penrod, Virginia S...........................................    28
    Tidd, RDML Mark L., joint with BG Charles R. Bailey and Brig 
      Gen Bobby Page.............................................    35
    Wilson, Hon. Joe.............................................    27

Documents Submitted for the Record:

    Statements from:
      American Civil Liberties Union.............................    85
      Americans United for Separation of Church and State........    79
      Anti-Defamation League.....................................    96
      Chaplain Alliance for Religious Liberty....................    65
      Chaplain MG Douglas L. Carver, USA (Ret.)..................    57
      Family Research Council....................................   130
      Hon. Doug Collins, a Representative from the State of 
      Georgia....................................................   136
      Interfaith Alliance........................................   126
      Liberty Institute..........................................   141
      Major Kamaljeet Singh Kalsi................................   119
      Religious Action Center of Reform Judaism..................   128
      Sikh Coalition.............................................   106

Witness Responses to Questions Asked During the Hearing:

    Mr. Wittman..................................................   147

Questions Submitted by Members Post Hearing:

    Dr. Fleming..................................................   151
    Mr. Forbes...................................................   157
    Dr. Heck.....................................................   151
    Ms. Tsongas..................................................   151
             RELIGIOUS ACCOMMODATIONS IN THE ARMED SERVICES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                       Washington, DC, Wednesday, January 29, 2014.
    The subcommittee met, pursuant to call, at 9:30 a.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentlemen, the hearing will come to 
order. Welcome to a meeting of the House Armed Services 
Subcommittee on Military Personnel. Today, the subcommittee 
will examine religious accommodations in the armed services, 
including the military services' interpretation, enactment, and 
enforcement of religious accommodation statutory and regulatory 
guidance.
    Historically, the armed services have supported religious 
freedom and, when possible, accommodated service members' 
religious beliefs and practices. I believe we can maintain a 
proper balance between religious accommodations, which will 
promote military readiness, unit cohesion, and good order and 
discipline. This should not present challenges to the military 
services.
    Chaplains have always been vital to our military. I am very 
grateful the chaplain school is located in the district that I 
represent, at Fort Jackson. One of the strengths of our 
military is its diversity with mutual respect. And as such, it 
has been important for Congress to work with the Department of 
Defense to ensure that appropriate statutory and regulatory 
guidance is in place in order for the services to meet the 
important spiritual and religious needs of our troops. 
Recognizing that there have been challenges in accommodating 
religious practices and beliefs, we have engaged in various 
efforts to clarify the role of religion in the military, 
prevent religious discrimination, and provide appropriate 
religious accommodations for those service members who seek it.
    Our goal today is to better understand how the Department 
of Defense has balanced the implementation of the religious 
accommodations policy with maintaining military readiness, unit 
cohesion, and good order and discipline.
    Before I introduce our panel, let me offer Congresswoman 
Susan Davis, the ranking member from California, an opportunity 
to make her opening remarks.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 27.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you, Mr. Chairman.
    And I want to also welcome our witnesses today. Thank you 
very much for being with us. Today's hearing on the 
accommodation of religious beliefs, including the right to 
observe no religion at all, by service members is an important 
issue. Over the past several years, the committee has attempted 
to balance the accommodation of religious beliefs of service 
members and chaplains with the need for commanders to establish 
and to maintain good order and discipline among their ranks. It 
is especially difficult for military chaplains who face 
difficult and unique challenges, unlike our chaplains or our 
rabbis in communities where congregations are able to self-
select where and whom they choose to receive their spiritual 
support.
    Military chaplains must provide spiritual care for all of 
those who serve in the military, most of which may not share 
their particular faith, or religious beliefs. This challenge 
has often created the perception that the Department of Defense 
or the services are prohibiting chaplains and service members 
from practicing the tenets of their faith. Often in these 
discussions what is lost is a recognition that a military 
chaplain's responsibility is not just to his or her tenets of 
their faith and those who follow that specific faith, but we 
know that ultimately, responsibility of military chaplains and 
why we have chaplains in the uniform at all, is to provide 
nondenominational, inclusive, spiritual support to all of those 
in uniform and their families, regardless of their specific 
religious belief.
    Our Armed Forces is a reflection of our country. Our 
country, which is comprised of individuals from all walks of 
religious beliefs, to those who have no belief in a specific 
religion, including atheists and free thinkers. Our diversity 
is what makes our country stronger and our ability to respect 
different cultures and beliefs, including religious beliefs, is 
the bedrock of our American values. We need to ensure that 
these values are upheld and protected for all service members 
and military clergy alike.
    Thank you so much, Mr. Chairman, I look forward to hearing 
from our witnesses.
    Mr. Wilson. Thank you, Ms. Davis, and I appreciate your 
commitment to our clergy serving in the military.
    I would like to welcome our distinguished witnesses. Ms. V. 
Penrod, Deputy Assistant Secretary of Defense for Military 
Personnel Policy; Chaplain Mark L. Tidd, Rear Admiral, Chief of 
Navy Chaplains; Chaplain Bobby Page, Brigadier General, Deputy 
Chief of Chaplains, U.S. Air Force; Chaplain Charles R. Bailey, 
Brigadier General, Deputy Chief of Chaplains, U.S. Army; Right 
Reverend James B. Magness, Captain Retired, U.S. Navy, Bishop 
Suffragan for the Armed Forces and Federal Ministries; and our 
last witness, who could not be with us today, due to unusual 
winter weather, a unique snow storm from Florida in the 
southeast United States this week, was Mr. Douglas Carver, 
Chaplain Major General Retired, U.S. Army, Executive Director 
of the North American Mission Board.
    We will enter his testimony for the record.
    [The statement of Mr. Carver can be found in the Appendix 
on page 57.]
    Mr. Wilson. I now ask unanimous consent that Congressman 
Robert Wittman of Virginia, Congressman Randy Forbes of 
Virginia, Congressman Dr. John Fleming of Louisiana, 
Congressman Steve Palazzo of Mississippi, Congressman Rich 
Nugent of Florida, Congressman Tim Huelskamp of Kansas, 
Congresswoman Vicky Hartzler of Missouri, Congressman Jim 
Bridenstine of Oklahoma, Congressman Mike Rogers of Alabama, 
Congressman Doug Lamborn of Colorado, Congressman Bradley Byrne 
of Alabama, and Congressman Alan Nunnelee of Mississippi be 
allowed to participate and ask questions after all members from 
the subcommittee have had the opportunity to question the 
witnesses.
    Without objection, so ordered.
    In addition, I ask unanimous consent to enter the following 
statements into the record: From the Chaplains Alliance for 
Religious Liberty, from the Americans United for Separation of 
Church and State, from the American Civil Liberties Union, from 
the Anti-Defamation League, from the Sikh Coalition, from the 
U.S. Army Major Kamal Kalsi, from the Interfaith Alliance, from 
the Religious Action Center, from the Family Research Council, 
and from Congressman Doug Collins of Georgia.
    Without objection, so ordered.
    [The statements referred to can be found in the Appendix 
beginning on page 65.]
    Mr. Wilson. Ms. Penrod, we will begin with your testimony.
    We will follow with a statement from Admiral Tidd, 
representing the chaplains, and then to our non-governmental 
witnesses.
    As reminder, keep your statements to three minutes. We have 
your written testimony for the record.
    Following your testimony, each member will participate in 
rounds of 3 minutes each until adjournment. And there are 
extraordinary time constraints. We just learned that votes may 
be at 10:20. And certainly, everyone would be given the 
opportunity to provide questions for the record.
    Ms. Penrod.

STATEMENT OF VIRGINIA S. PENROD, DEPUTY ASSISTANT SECRETARY OF 
  DEFENSE FOR MILITARY PERSONNEL POLICY, DEPARTMENT OF DEFENSE

    Ms. Penrod. Good morning, Chairman Wilson, Ranking Member 
Davis, and distinguished members of the subcommittee. Thank you 
for the opportunity to provide testimony today. The Department 
places a high value on helping chaplains as well as military 
personnel and their families to observe the tenets of their 
faith.
    As you now know, we have revised and published policy on 
the accommodation of religious practices within the military 
services to ensure the protection of rights of conscience of 
members in the Armed Forces in accordance with the 2013 and 
2014 National Defense Authorization Act [NDAA]. Part of the 
delay in publication was necessary to incorporate the changes 
in law in the last two NDAAs.
    In response to concerns of the Congress, I conducted a 
teleconference with over 30 of our hard-working chaplains in 
the field. I asked if they are allowed to preach or practice 
according to the tenets of their faith. Their response was an 
overwhelming yes. They felt they were given the support they 
needed from command. When asked if they were forced to perform 
ceremonies that went against their faith, 100 percent said no.
    There were a few chaplains that felt some of the leadership 
positions tend to be overly reactive to social media. However, 
almost all believed the key to a productive and trusting 
climate was good communication and continued training on the 
rights of chaplains and not only the chaplains, but also for 
commander. Our chaplains and commanders continue to navigate 
recent policy changes, such as same-sex marriage, but have not 
expressed a difficulty in doing so.
    The group felt that social media and rumors were the source 
of most misinformation, and these create constant challenges to 
keep the chaplains properly informed of the facts. I am and 
continue to be most impressed with our military chaplaincy. 
Although a small sampling, my direct communication with the 
chaplains reinforced what the service chiefs of chaplains have 
been telling us, that they have open communication with their 
chaplains and that their chaplains are not concerned regarding 
the free exercise or expression of their faith. If an incident 
does occur, they are confident it will be worked appropriately.
    Your concern for our chaplains gave me the idea to pulse 
the field for direct feedback. As we continue to pulse the 
field, another form will be the survey, as directed by the 2014 
NDAA.
    In conclusion, Mr. Chairman, I want to thank you and the 
distinguished members of this subcommittee for your strong 
advocacy on behalf of the men and women of the Department of 
Defense and your steadfast support for military chaplaincy. I 
look forward to your questions.
    [The prepared statement of Ms. Penrod can be found in the 
Appendix on page 28.]
    Mr. Wilson. Thank you very much.
    And Captain Tidd.

 STATEMENT OF RDML MARK L. TIDD, USN, CHIEF OF NAVY CHAPLAINS, 
  U.S. NAVY; ACCOMPANIED BY BG CHARLES R. BAILEY, USA, DEPUTY 
 CHIEF OF CHAPLAINS, U.S. ARMY, AND BRIG GEN BOBBY PAGE, USAF, 
             DEPUTY CHIEF CHAPLAIN, U.S. AIR FORCE

    Admiral Tidd. Chairman Wilson, Ranking Member Davis, and 
esteemed members of the committee, thank you for the 
opportunity to appear before you today to address how the 
chaplaincies of the military departments support the religious 
and spiritual needs of our people.
    With my colleagues here, we are members of the Armed Forces 
Chaplains Board, and together, we do have a few decades of 
experience in military ministry. And that has been our 
privilege and honor. Part of the genius of the American way is 
that we are committed to recognizing that each person has the 
right to determine his or her own deepest convictions, 
including one's religious convictions.
    As chaplains, we work together cooperatively to meet the 
religious needs of as many of our people as we can, always 
guided by the teachings of our religious bodies. And we care 
for all with dignity and respect and compassion, whatever their 
religious beliefs.
    For many of our people, religious faith is an essential 
component, even the foundation, of their resilience in the face 
of adversity. Chaplains bring a message of hope for all who 
seek our support, often in times of our deepest human need. 
Chaplains oversee religious ministries around the globe, aboard 
ships at sea, in battalions and brigades, on flight lines, in 
our installation chapels, in military hospitals, and in combat. 
These ministries build resistance--resilience, and they help 
our people to be ready to meet the demands of military service.
    We also act as advisors to commanders on unit morale, on 
morals and ethics, and on the free exercise of religion. In the 
last 8 months, the chiefs of chaplains have communicated with 
our chaplains to reaffirm the protections afforded them by the 
Constitution, by law, and by policy when performing their 
religious ministry. We have also provided guidance on ways to 
resolve issues that they might face in providing religious 
ministry.
    When we are made aware of a situation that appears to 
challenge the religious freedom of service members, including 
chaplains, we are eager to step forward to help resolve it. We 
expect our chaplains to be guided by the teachings of their 
religious bodies to work together and to provide outstanding 
religious ministry that includes responsive pastoral care. Our 
chaplains are meeting the religious needs of our people around 
the world to the greatest extent possible.
    Again, Chairman Wilson, Ranking Member Davis, and 
distinguished members of the committee, thank you for the 
opportunity to appear before you today. We look forward to 
answering your questions.
    [The joint prepared statement of Admiral Tidd, General 
Bailey, and General Page can be found in the Appendix on page 
35.]
    Mr. Wilson. Thank you very much, Chaplain Tidd.
    And we now proceed to Right Reverend Magness.

STATEMENT OF REVEREND JAMES B. MAGNESS, BISHOP SUFFRAGAN OF THE 
   ARMED FORCES AND FEDERAL MINISTRIES, WASHINGTON NATIONAL 
                           CATHEDRAL

    Rev. Magness. Good morning, Chairman Wilson, Ranking Member 
Davis, and esteemed members of the committee.
    Thank you for inviting me here today. It is an honor to 
speak with you. Since 2010, I have been the Bishop for the 
Armed Forces and Federal Ministries for the Episcopal Church. 
In that capacity, I endorse and work with all Episcopal 
chaplains in the Armed Forces.
    I have had the honor of serving the Navy in two capacities 
during my military career. I served first as an enlisted person 
on ships and in Vietnam, later becoming a Navy chaplain, 
retiring in the rank of captain and served as Command Chaplain 
of U.S. Joint Forces Command and Fleet Chaplain for the U.S. 
Fleet Forces Command.
    Based upon my own service, my work now with the Episcopal 
chaplains who serve, I would like to share my thoughts with 
you. Based upon my service now--in 1976, my Navy enlisted 
service, I stood before a Navy officer to take the solemn oath 
of office as a Navy Chaplain Corps officer. Instinctively, I 
knew that when I took the commissioning oath, I was committing 
myself as never before to serve our service men and women. Not 
only was I taking this oath as an officer, I was making the 
pledge that I would support their rights that are guaranteed by 
the First Amendment to the Constitution.
    I have learned that the military chaplain may at times be 
required to place the needs and rights of the service member 
ahead of his or her own needs and rights. I learned that as a 
religious leader, the ministry of a military chaplain is in 
some very significant ways different from that of their 
civilian counterparts. Normally, a civilian religious leader is 
only responsible for and accountable to the congregation to 
which called; whereas, the military chaplain has a far broader 
set of responsibilities. These responsibilities are to care for 
America's sons and daughters, who come from every sector of 
this country.
    During my first active duty assignment as a chaplain, I 
learned a meaningful lesson when I was asked to participate in 
a retirement ceremony and offer prayers for the retiree, a Navy 
captain of the Dental Corps. Using my distinctively Christian 
Book of Common Prayer, I created a prayer, which as I recall, 
ended with these words, ``through Jesus Christ our Lord.''
    Later, the retiring officer came up to me to thank me for 
being available to assist and then, in a calm and reasoned way, 
said to me, ``You might want to know that all of the members of 
my family and I who are present here today are practicing 
Jews.''
    It didn't take me long to realize that I had just excluded 
and offended the honoree and all of the members of his family 
by offering an inappropriate prayer. I learned that when in 
uniform, my responsibility is to care for all of those who are 
present, not just those of my own faith tradition; for all 
people, Christian, Jew, Muslim, nontheist, straight, gay, or 
lesbian, all people.
    I tell this story because in a number of ways it gets to 
the heart of the subject of this hearing. I believe that the 
current law and the Department of Defense policies provide more 
than adequate guidance in matters of religious accommodation 
for service members and chaplains alike. I am satisfied that 
when there have been instances of religious discrimination, the 
service leaders have invariably taken swift and appropriate 
action to ensure that fairness and equality and mission 
accomplishment are all held in a productive balance.
    In today's very complex social and cultural environment, I 
believe that the service leaders are doing a splendid job of 
using existing law and policy and finding creative ways to 
ensure universal religious accommodation for all people. Thank 
you for having the opportunity to speak with you.
    [The prepared statement of Rev. Magness can be found in the 
Appendix on page 46.]
    Mr. Wilson. Thank you, Reverend.
    Thank you very much, and as we proceed, David Giachetti is 
going to be maintaining a 3-minute rule, including on me.
    And I am so grateful that we have had so many colleagues 
who wanted to be here today because this issue is so important.
    And indeed, Chaplain Tidd, I think it confirms what you 
said, that the chaplaincy is an essential component of military 
service, and for our family, my oldest son served for a year in 
Iraq, and his roommate was Chaplain Steve Shugart. We learned 
firsthand what extraordinary service and how meaningful that is 
for our military service members.
    Ms. Penrod, what was the delay in publishing the 
implementing instruction enacting this legislation, and why was 
the provision on chaplains not included in the published 
instruction?
    Ms. Penrod. Well, thank you for those questions, Mr. 
Chairman.
    We were actually in the process of publishing our 
instruction that included accommodation of religious practices 
in the military services. That particular instruction includes 
the protection of rights of all our service members, which 
includes our chaplains. It takes anywhere between 9 months to 
18 months to publish an instruction in the Department, although 
not ideal. I will be the first to criticize the process.
    However, when the watch was changed in 2013, we decided to 
include the change in law in that instruction, which required 
us to pull the instruction and begin the process over. So there 
was a delay. We are not pleased with the delay, but we did want 
to include the change as far as it pertained to all our service 
members. The specific section of law, 533(b) that pertains to 
chaplains will be included in a different instruction. That one 
is the guidance for appointment of our chaplains. That 
instruction is under revision, and we are pushing hard to have 
that completed by this summer.
    Mr. Wilson. And so you would anticipate completion by July 
1.
    Ms. Penrod. I would not want to give a specific date, Mr. 
Chairman, but our goal is to have it this summer.
    Mr. Wilson. And as soon as possible. It is just so helpful 
to our military. Additionally, how long do the services have to 
publish their companion regulations on this issue, and will the 
Department be able to meet the 90-day deadline to publish 
further implementing regulations as required by the fiscal year 
2014 National Defense Authorization Act?
    Ms. Penrod. I can leave it to the chaplains to speak to the 
specific instructions, but I believe they have already put out 
a guidance through memos and emails to the field, to--so that 
they know that these changes are in place.
    Mr. Wilson. And for everyone, again, I appreciate your 
being here, but you can tell the Members of Congress are 
vitally interested, our constituents, service members, military 
families, veterans, are vitally interested in your input and 
your service. And that is why, to me, this is a record turnout 
at any subcommittee and truly a reflection of the concern of 
the people of our country about supporting the service of our 
chaplains.
    I now turn to Congresswoman Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and Ms. Penrod, I 
wanted to--again, please, I understand that the Department has 
investigated allegations of chaplains being required to perform 
duties inconsistent with the tenets of their faith but have not 
necessarily been able to substantiate those claims. Is that 
correct?
    Ms. Penrod. Yes, Congresswoman Davis, I cannot speak to 
specific cases, but to my knowledge, we have not had instances 
where we can pinpoint a specific chaplain that has complained 
or provided evidence that they have been forced to provide a 
sermon or attend a ceremony or oversee a ceremony that went 
against the dictates of their particular religion.
    Mrs. Davis. Thank you. I wonder also then if the Department 
or the services track complaints by service members who were 
subject to inappropriate proselytizing by other service members 
or by military chaplain. Do we know anything about that?
    Ms. Penrod. Chairman Davis, I would need to defer to our 
chaplains to speak to any specifics.
    Admiral Tidd. Ma'am, we have not received those kinds of 
complaints. It is not something that we have been tracking, but 
we are certainly very sensitive to those and eager to get 
information on that if that is the case.
    Mrs. Davis. But to your knowledge, there haven't been any 
that have come to you or to others who have spoken with you?
    Admiral Tidd. Not to my knowledge, ma'am.
    General Bailey. It is the same with the Army, ma'am. There 
are no complaints that we have received, nor have we had any 
accumulation of those complaints, but we are sensitive to that 
and are monitoring constantly any issues that are out there.
    General Page. That would also be true for the Air Force. It 
is something very, very important to us that all airmen are 
free to practice their faith, and I am not aware of any cases 
where airmen are complaining about or alleging that they have 
been mistreated for lack of faith or disagreeing with someone.
    Mrs. Davis. Okay, thank you.
    And Bishop Magness, if I could turn to you, and I 
appreciate the story that you shared with us. One of the--could 
you talk just a little bit more about how you feel that 
allowing sectarian prayers at military ceremonies would harm 
unit cohesion and other important goals and laws that we have?
    Rev. Magness. Yes, thank you for the question, 
Congresswoman Davis. And I base most of this on my own 
experience, both as a practitioner of religion within the 
Department of Defense and also as one who had occasion to 
supervise a large number of chaplains from time to time.
    The issue of good order and discipline and unit cohesion is 
incredibly important, and when we find ourselves offending 
others by the use of sectarian prayers, that has a significant 
negative impact upon good order, discipline, and unit cohesion. 
In the case that I cited with this Navy captain and the Dental 
Corps, he certainly was of senior rank and able to come forward 
and state his complaint. And I was a lieutenant, Navy 
lieutenant at the time.
    However, in other cases, I fear that those who have their--
feel that they have their rights violated and have intrusive 
prayers offered with them, sectarian prayers, will not come 
forward. They don't feel the opportunity to come forward. They 
don't feel that they have a voice in the organization because 
of their situation, place in the system that they--in which 
they participate. So I think unit cohesion is incredibly 
important in this issue.
    Mrs. Davis. Thank you.
    My time is up.
    Mr. Wilson. And thank you, Ms. Davis.
    And indeed, the significance of appreciation of chaplains 
is indicated. We have been joined by the chairman of the House 
Armed Services Committee, Buck McKeon of California.
    So, Chairman McKeon, thank you for being here.
    We proceed now to Congressman Dr. Joe Heck of Nevada.
    Dr. Heck. Thank you Mr. Chair.
    And thanks Ms. Penrod, Chaplains, Right Reverend, thank you 
all for being here to talk about this important issue. And as 
we can see, it is also not just a big issue from the sake of 
the chaplaincy, but also for the Sikh community. Several 
members are present here today.
    And Ms. Penrod, I know that DODI 1300.17 [Department of 
Defense Instruction] was recently revised. But it is my 
understanding that there is still within the DODI a presumptive 
ban on members of the Sikh religion from joining, from having 
to give up their articles of faith, from having to seek an 
accommodation every time they have a change of assignment, and 
whether or not there is still some question as if they are 
allowed to access into the service, whether or not they have to 
stop wearing their head gear, or shave while going through boot 
camp until an accommodation is granted.
    Can you please explain why there remains the presumptive 
ban? I know, previously, I served with Colonel Sekhon, who is 
one of the trailblazers when he was commander of the 349th CSH 
[Combat Support Hospital] and seemed to be able to overcome 
every obstacle that the military tried to put in his way from 
effective service. I am curious why the DODI still maintains 
those bans.
    Ms. Penrod. It is good to see you again, Dr. Heck. What the 
DODI, what the changes do, it tries to balance the needs or 
provides the service the ability to balance the needs of the 
service member with the needs against mission accomplishment. 
What we have done is decisions relating to any waiver of a 
regulation or policy that pertains to uniform, wearing of 
religious articles of clothing is now elevated to the service 
secretary and cannot be delegated below a three-star level. So 
it is at a very high level and the decision with the--we have 
delegated that to service, and the reason behind that is the 
service is in the best position to determine their readiness 
needs, to determine unit cohesion, safety and health of not 
only the individual, but the unit.
    The service has the responsibility, though, to look at the 
request of the individual, and it has to be a compelling 
governmental interest before they make that decision. They will 
look at the facts. They will look at precedence in making that 
decision. So that is what we have done in this particular DODI.
    Dr. Heck. But does it still require, correct me if I am 
wrong, but does it still require a new waiver every time there 
is a change of assignment? If it is now elevated to the three-
star level, you would think that that would carry through in 
the person's lifetime of service, as opposed to every time they 
change assignment.
    Ms. Penrod. Well, Dr. Heck, when you look at military 
readiness, each unit of assignment has a different 
responsibility. The service has to make that determination if 
now this new position or new job that the individual would be 
performing impacts safety, health, the unit, they may deny the 
accommodation.
    Dr. Heck. I understand. I know we are short on time today 
because of a compressed timeframe, I would like to discuss this 
more offline with you, and we can kind of do a bigger deep dive 
into this issue.
    Thank you, Mr. Chair. I yield back.
    Mr. Wilson. Thank you, Dr. Heck.
    We now proceed to Congressman Dr. Brad Wenstrup of Ohio.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    You know, I found that when I served in theater in Iraq 
that, you know, there was definitely an effort by the chaplain 
to be respectful of all religions. And I found that our 
chaplain was able to provide compassion and comfort for anyone 
who was in need, even if they were nonbelievers of any type. 
And I think that that is an effective role of a chaplain, and I 
think chaplains display a tremendous ability to be 
accommodating.
    You know, personally, I am not offended by anyone praying 
in their own way. That doesn't bother me. Some people do get 
offended if someone is praying in a different way.
    I don't really have a question today, but I would caution 
us as we proceed just to recognize that there is a fine line 
between accommodating and respecting all religions and 
restricting religious freedom. And that is the line that we are 
walking on here. And I think we have to be very cautious. And I 
hope that we are going in the right direction in trying to 
accomplish that.
    And I thank you all for being here today.
    Mr. Wilson. Thank you, Dr. Wenstrup.
    We now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    I guess I share the same concerns that my colleague, Dr. 
Wenstrup, shares.
    I have a specific question, though. As a Christian, I am 
very respectful of other people's right to practice their 
faith. We have a First Amendment in this country. It is what 
our country was founded on; founded on the First, protected by 
the Second. And it seems that in the military people of my 
faith can get reprimanded for a statement as simple as one 
saying that my priorities in life are a commitment to my Lord 
and Savior Jesus Christ, a commitment to my family, and a 
commitment to my country, in that order. I am aware of a 
colonel that got reprimanded in a change of command for saying 
that on the stage. He didn't say that anybody in the crowd had 
to believe as he did or share his priorities. And my question 
is, can you give me any example of a person of a faith other 
than a Christian faith, where they were reprimanded for a 
statement that was that simple?
    Ms. Penrod. Congressman, thank you for your question. I 
cannot give you an example of anyone that was reprimanded for 
expressing their religious beliefs because really it is free 
speech. We become concerned in the Department if an individual 
is coercing any other individual or impacting unit cohesion.
    Again, I can defer to the chiefs of chaplains if they know 
of any instance, but I do not know.
    Mr. Scott. Ma'am, if I may, we know of instances where 
Christians have been reprimanded for statements as simple as 
that. Are you saying that you know that there are no other 
instances of people of any other faith?
    Ms. Penrod. I know of no instances of any faith. If you do 
have examples, the Department would be more than willing to 
look into specific examples.
    Mr. Scott. We will get you that information. And I would 
ask for the different branches, if they would, to--this was an 
Air Force colonel that the reprimand came to. If each of you 
would speak briefly to that, I have got 30 seconds.
    Admiral Tidd. Sir, I am not aware of any of those 
instances.
    General Bailey. Also, I am not aware either, sir, but also, 
that there is--if there was an instance possibly, a chaplain 
would be there to advise the command that that was a wrong 
procedure to go by.
    General Page. Thank you for bringing up this issue.
    Commanders are also airmen. Airmen are free to practice 
their faith. In order for the airmen under that commander, 
under any person of authority, to practice their faith, it is 
necessary that the commander, as the agent of the government, 
if you will, exercise some discretion and some wisdom in what 
he, she, would do, so that the people under him, under her, 
would be able to practice their faith.
    So as long as the person of authority, as long as it is 
clear that what he is saying is personal and not official, not 
an expectation, he is free to practice his faith and speak of 
his faith.
    Mr. Scott. My time is expired, thank you.
    And we will get you a copy of the reprimand if he will 
share it with us. It is clearly biased.
    Mr. Wilson. Thank you, Mr. Scott.
    We now proceed to Congressman Dr. John Fleming of 
Louisiana.
    Dr. Fleming. Thank you, Mr. Chairman.
    And before I ask questions, I would like to address the 
chair if I could. First of all, we have about an hour for a 
subject that could go on for days. I am very concerned about 
that. We have many Members here who are not even on this 
subcommittee, which, again, shows you how much interest there 
is. There is a long line outside down the hallway, and so what 
I would like to say, first of all, is that we definitely need 
to repeat this hearing and perhaps at the full committee level. 
So I would ask that.
    Secondly, just to begin my questions here, in terms--if you 
do want to know about the problems that we are seeing with 
religious liberty, all you have to do is go to ``Clear and 
Present Danger.'' It is an FRC [Family Research Council] Web 
site. There is a huge tabulation that has occurred over recent 
years. I have spoken with the head chaplain of the Air Force. I 
have made him aware of this. And again, I am disappointed that 
we don't have General Boykin and others who can actually tell 
us about all of these problems.
    But let me say this, I feel very good about the fact that 
there has not been a single complaint or problematic complaint 
with proselytizing. Yet, we hear from our sectarian atheist 
friends that that is a huge problem in the military, and that 
is the reason why we have to change the culture of the 
military.
    So if people are free to express their religious beliefs, 
why do we have a growing number of complaints? And again, I 
won't go into those, but I would refer to that Web site, 
because of lack of time.
    Here is my question, Ms. Penrod, you know, last week DOD 
[Department of Defense] issued an instruction, 1300.17, 
regarding the accommodation of religious practices within the 
military services. Were these revisions the Department's 
official response to the congressional requests in the NDAA 
2013, and/or 2014?
    Ms. Penrod. Congressman, thank you for that question. The 
accommodation, the DODI, is the official document that includes 
the changes in law in 2013, 2014.
    Dr. Fleming. Okay. So, in the fiscal year 2014 NDAA, 
language was included that said, quote, ``In prescribing such 
regulations, the Secretary shall consult with the official 
military faith group representatives who endorse military 
chaplains,'' end quote. Did the DOD comply with the fiscal year 
2014 NDAA by consulting with the official military faith group 
representatives in formulating this instruction?
    Ms. Penrod. Well, the instruction was under revision as the 
law was being deliberated. Actually, it was pretty much 
completed. However, we had the opportunity on January 16th, to 
meet with over 100 religious endorsers.
    Dr. Fleming. Well, I am running out of time. Just to make 
it clear, the answer to that is, no.
    Ms. Penrod. No, the answer is yes.
    Dr. Fleming. It is no. And that is why we need more 
hearings, Mr. Chairman.
    Thank you, I yield back.
    Mr. Wilson. Thank you, Dr. Fleming.
    Congressman Doug Lamborn of Colorado.
    Mr. Lamborn. Thank you, Mr. Chairman.
    You all know, I am sure, of Chaplain Dale Goetz, who died 
in Afghanistan. I have legislation to name a post office in his 
memory. If and when that day arrives, I would like to invite 
you all to help memorialize that occasion and to honor his 
memory. So please be aware of that.
    Chaplain Tidd, do you agree that chaplains should be free 
to prepare and deliver sermons or teachings according to the 
faith traditions of their endorsing agency without interference 
from a commander?
    Admiral Tidd. Sir, that is correct. That is our policy, and 
that is our practice.
    Mr. Lamborn. And would anyone disagree with that answer he 
gave?
    [Nonverbal response.]
    Mr. Lamborn. Thank you.
    Chaplain Page, should chaplains be free to write public 
essays about a faith's teaching and the tenets of their 
personal faith in particular?
    General Page. Absolutely.
    Mr. Lamborn. Okay, thank you. And would anyone disagree 
with that answer?
    [Nonverbal response.]
    Mr. Lamborn. For any one of you, chaplains are not only 
members of the Armed Forces but also representatives of faith 
groups and accountable to an endorsing agency that holds to 
specific faith tenets. If the chain of command has veto power 
over the content of religious speech in the military, would the 
core of the chaplaincy be compromised?
    Chaplain Tidd.
    Admiral Tidd. Sir, as we have discussed, it is hard for me 
to conceive that the chain of command would want to have veto 
power particularly over a sermon, a Bible study, teaching like 
that. So that is just not part of who we are as a military, as 
well as a chaplain.
    Mr. Lamborn. And that situation would be unacceptable in 
your opinion?
    Admiral Tidd. Yes, sir.
    Mr. Lamborn. Okay, thank you. Should DOD policy determine 
in any way what is an acceptable body of moral or religious 
beliefs to discuss, teach, or share in the military?
    Ms. Penrod.
    Ms. Penrod. No.
    Mr. Lamborn. Okay, thank you.
    And would anyone disagree with her answer?
    [Nonverbal response.]
    Mr. Lamborn. Lastly, it is our understanding that 
additional regulations regarding chaplains are forthcoming. 
Will you commit to come back before the committee and discuss 
these regulations?
    Ms. Penrod.
    Ms. Penrod. Yes, I will.
    Mr. Lamborn. Thank you all very much for your answers and 
thank you for being here.
    Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Mr. Lamborn.
    We now proceed to Congressman Trent Franks of Arizona.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you so much for being here. You know, it 
is my contention that those who defend our country are the most 
noble figures in society. And often, in the process of doing 
that, they put themselves at mortal risk.
    And it is also my contention that part of military 
efficiency and cohesion and capability is rooted in their own 
ability to have refuge in their own faith when they face death 
for all of us, and it is not a small issue, and it is not just 
a religious freedom issue. This is about a military capability 
that we protect religious freedom, and religious freedom goes 
to the very heart of who we are as a people and as a Nation.
    And in terms of when prayers are written by some commanding 
officer or something like that, you understand the danger that 
if we have to proscribe or prescribe any prayer to the chaplain 
or someone that has dedicated their life to a particular tenet 
or faith, it can vitiate the entire reason that they pursue 
this entire impetus. And I was struck by Reverend Magness' 
comments and very respectful of it, but was struck by it. If 
the people had approached you and said, well, we are atheist 
and we are offended by any prayer, would that have motivated 
you to say, well, we wouldn't pray at all? And my question here 
to all of you is, when it comes to prayers that chaplains make 
before an official crowd or anything else, is there anything in 
the military code or anything in the practice of the military 
or anything in the anticipated regulations that would prohibit 
a prayer that--say if it is a Christian prayer, in Jesus' name, 
like you mentioned, or if it was a Jewish prayer in some other 
way, would there be anything anticipated or anything in the 
military code that would prohibit any person officially or 
quasi officially from being able to pray in a public setting, 
even in an official setting, according to the tenets of their 
faith? It is a specific question.
    If it is all right, Ms. Penrod, I will talk to you and then 
just go down the line here.
    Ms. Penrod. Yes, Congressman.
    There is absolutely nothing in policy or code that 
prohibits a chaplain from praying in accordance with the 
dictates of their faith.
    Mr. Franks. And Chaplain Tidd, would you agree with that?
    Admiral Tidd. Yes, sir. Chaplains are always free to pray 
according to the manner and forms of their religious 
organizations. We also as a matter of practice understand that 
not every setting is a worship service. And so we are free to 
work within the parameters of our religious traditions to pray 
in a way that is meaningful for that particular group.
    Mr. Franks. But any reports of people being said that, you 
know, in the case of Reverend Magness, it was voluntary on his 
part, but any reports of anyone saying, no, you cannot pray in 
that way, or is there anything anticipated in the regulations?
    Admiral Tidd. Sir, I am not aware of that. If a chaplain 
feels that they can't pray in a way that would be meaningful 
for that group, they always have the opportunity to 
respectfully withdraw from that with no kind of retribution. 
The commander is also free to choose any chaplain that the 
commander would like to offer a prayer.
    Mr. Franks. Thank you, Mr. Chairman.
    Thank you all very much.
    Mr. Wilson. Thank you, Congressman Franks.
    And we now proceed to a brand new Member of Congress, Brad 
Byrne of Alabama.
    Mr. Byrne. Thank you, Mr. Chairman.
    And Bishop Magness, I wonder if I could start with you. 
Just so you know, I am a cradle-to-grave Episcopalian and the 
nephew of an Episcopal priest who was a chaplain. And I was 
struck by your comments, and I want to make sure that we give 
you an opportunity to clarify if you need to.
    Many of our prayers in the ``Book of Common Prayer'' end 
with that simple statement, ``In the name of the Lord Jesus 
Christ.'' Do you feel like that there are times for you or for 
other chaplains when you feel inhibited in being able to invoke 
the name of Jesus or invoke the name of God because of a 
particular thing that is in the code or just because of a 
practice in the military?
    Rev. Magness. Thank you for the question.
    Speaking personally for myself, I never felt that I was 
inhibited in any way as a military chaplain from praying in any 
particular way, nor do I think there should be any policy that 
prohibits that. This is a matter of education and training. We 
train chaplains and continue to train chaplains, as I train our 
Episcopal priests, to be able to understand and learn and read 
situations, to know the distinctions between a religious 
service and a command function, and to know that in certain 
settings, certain things are appropriate and other settings 
they are not, that they can be offensive.
    One of the things we do in the Episcopal Church when we 
take our baptismal vows is to say that we will respect the 
dignity of every human being. I take that very seriously, and I 
expect my chaplains to take that very seriously. And I will not 
restrict them from praying in any way that they want to or need 
to at any particular place; yet to be mindful that they have an 
effect as a command leader upon the dignity of everyone who is 
there with them.
    Mr. Byrne. And if you know that there is, if you are 
speaking to an audience and it includes people who happen to be 
Jewish, you know that there may be an appropriate way to state 
your prayer that is in keeping with your own faith and with 
their faith as well.
    Rev. Magness. I believe that there are a lot of different 
ways to pray. I don't think that from my own personal 
preference of the ending subscription, ``in Jesus' name,'' 
always has to be there. In fact, not every prayer I pray always 
has that at the end.
    Mr. Byrne. And I wonder if I could direct this to you, Ms. 
Penrod. My uncle told me, the first time I ever heard it, that 
there is no such thing as atheists in foxholes. Maybe we have 
them today, but during World War II and the aftermath of that, 
he didn't feel that way.
    Do you think it is appropriate for our chaplains to be able 
to witness to the men and women in our armed services when they 
are going through these difficult times and to witness in a 
personal way, not just in some sort of an abstract way, but to 
personally witness to them?
    Ms. Penrod. Sir, what the Department believes is that all 
members have the right to practice according to the tenets of 
their religion or no religion. If an individual is comfortable 
with that, absolutely.
    Mr. Byrne. By ``any individual,'' you mean a chaplain as 
well, not just an individual service man or woman?
    Ms. Penrod. Absolutely. And if the individual is 
uncomfortable with the chaplain praying, they can address that 
with the chaplain.
    Mr. Byrne. Thank you, Mr. Chairman.
    I yield back.
    Mr. Wilson. Thank you, Congressman Byrne.
    We now proceed to Congressman Rob Wittman of Virginia.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to thank our panelists for joining us today.
    Ms. Penrod, I want to begin with you. Can you give me some 
perspective about the Defense Equal Opportunity Management 
Institute and what they use as a metric in communicating to 
units out in the field? And can you tell me, do they consider 
the Southern Poverty Law Center's list of hate groups to be a 
reliable indicator of extremist groups in the United States?
    Ms. Penrod. Well, Congressman, thank you for that question. 
That organization is out of the purview of my responsibilities. 
I will need to take that for the record.
    Mr. Wittman. Okay, because my concern is that as these 
groups have been identified as extremist groups, they include 
some religious groups, which to me is very troubling. Can you 
tell me if there are any steps in the plan that the Defense 
Equal Opportunity Management Institute puts out that determines 
recommended resources for EO [equal opportunity] trainers for a 
further study to look at how they identify these extremist 
groups and whether they do include religious groups that I 
think do intersect into the idea of religious freedom by 
identifying certain groups on a very subjective basis, and how 
that is communicated out to the field with the EO trainers?
    Ms. Penrod. Again, Congressman, I would need to get the 
specifics for you, so I will take that for the record.
    [The information referred to can be found in the Appendix 
on page 147.]
    Mr. Wittman. Okay. Let me ask you, this was specific to the 
Army and how the Army was communicating as to whether certain 
religious groups were extremist groups. Has the Army made any 
changes to training or anything that they are doing as far as 
identifying religious groups as extremist groups and how they 
train their men and women?
    Ms. Penrod. I will defer to Chaplain Bailey.
    Mr. Wittman. Chaplain Bailey.
    General Bailey. Yes, sir, thank you. They have stopped all 
training and revised the training packets to ensure that all of 
the information is correct. This that you are talking about was 
an isolated case in which information was brought in from on 
outside source. It was a mistake, and it was quickly corrected 
at the time.
    Mr. Wittman. Okay, so that has been corrected. I understand 
that those training courses were stopped in order for this to 
be considered. So what you are saying is, changes have been 
made. Are the new training courses now being reinstituted? Are 
trainers now continuing with that EO training based on a new 
directive from the Army?
    General Bailey. Sir, it is outside of my perimeter of 
information. However, I understand that they have stopped that. 
They have got better information in, and they are starting the 
training back up again with the correct information.
    Mr. Wittman. Okay, very good.
    Thank you, Mr. Chairman. With that, I yield back.
    Mr. Wilson. Thank you, Congressman Wittman.
    We now proceed to a very proud military dad, Congressman 
Rich Nugent of Florida.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I certainly do thank our chaplains for your service to 
this country and particularly to our service members. You know, 
much has been made about our military's role in religion, and 
there are those who argue it is the responsibility of the 
military to promote religious values, specifically, Christian 
values. Others argue it is the responsibility of the military 
to create a purely secular environment, where no person would 
ever be exposed to religious beliefs or challenge--that 
challenge their own.
    I am the father of three sons currently serving in the 
United States Army, and I am a Christian. I believe it is the 
military's responsibility to provide for the spiritual needs of 
warfighters of any faith. The dedicated chaplains and support 
assistants meet that need everywhere our armed services are in 
the world.
    Would you please confirm with me, or confirm to me the 
military's level of commitment to religious need of all 
personnel while validating the following facts: The Air Force 
had 2,472 chaplains and 3,344 enlisted assistants who have 
served since the program was created in 1975; 1,870 chaplains 
and assistants currently serve today in the Air Force. Two died 
while deployed. Navy, total number of chaplains could not be 
found, but the largest the chaplain corps has ever been was 
1,487 serving during the same time during World War II. Today, 
2,042 chaplains and assistants serve currently. Fifteen 
chaplains died while deployed, and two chaplains received the 
Medal of Honor. In the Army, more than 25,000 chaplains and 
assistants have served in the Army; 6,400 chaplains and 
assistants currently serve. Three hundred have died while 
deployed, and six chaplains received a Medal of Honor.
    I just want to make sure that the commitment of the armed 
services is to provide for that spiritual need of any service 
member within any of the organizations. Does that commitment 
still stand today? I think by the numbers, would you agree with 
those numbers? And I know you may not know specifically the 
numbers, but in general terms.
    Admiral Tidd. Sir, I would say for the Navy, that is 
roughly right, and I would have to check on the specifics; but 
absolutely, our commitment is strong to honoring the religious 
and spiritual values of our people and supporting religious and 
spiritual values of all of our people.
    Mr. Nugent. It is not just spiritual values, I would think, 
from my time when I was in basic training, and my sons, who 
currently serve; it really is to minister to any. It matters 
not if they have a religious affiliation. They are there as a 
counselor and a shoulder to lean on and talk to get help if 
necessary. And so I do appreciate all that the chaplains do. It 
is a huge service to this country, and to our warfighters, and 
please continue.
    I yield back.
    Mr. Wilson. Thank you, Congressman Nugent.
    We now proceed to Congressman Mike Rogers of Alabama.
    Mr. Rogers. Thank you, Mr. Chairman.
    Ms. Penrod, late last year, I had a young woman in my 
district go to a VA hospital down near Montgomery, Alabama. The 
young woman made homemade cookies and packaged them up to take 
to the VA Hospital, a couple of hundred packages to give to 
some of the veterans in the hospital in honor of her late 
grandfather. But when she arrived at the VA hospital, she was 
denied the ability to hand out those cookies because the 
packaging had the word ``Christmas'' on it.
    While this incident occurred in a VA hospital, I am curious 
if it had been a DOD facility, do you all have a policy that 
would prevent somebody from doing something for our men and 
women in service if the word ``Christmas'' or ``Hanukkah'' or 
whatever was on the packaging.
    Ms. Penrod. We do not have such a policy.
    Mr. Rogers. Thanks.
    On another subject, current DOD policy states that service 
members can share their faith or evangelize but must not force 
unwanted intrusive attempts to convert others of any faith or 
no faith to one's beliefs. My question is, who makes the 
determination of the relative comfort of others, and what is 
the practical application of that policy?
    Ms. Penrod. I will defer to our chiefs of chaplains.
    Admiral Tidd. Sir, as we share our faith, as service 
members share our faith, we are always open to do that. It is 
always an option for us to do that and to do so respectfully 
and gracefully. And that is something that is worked out 
between the individuals. If an individual says, ``Thanks, I am 
not interested,'' that is an appropriate time for the other 
person to step back. If they say, ``I would like to hear more 
about that,'' then, absolutely, we continue.
    Mr. Rogers. All right, thank you.
    That is all I have.
    I yield back, Mr. Chairman.
    Mr. Wilson. Thank you very much, Congressman Rogers.
    We now proceed to Congresswoman Vicky Hartzler of Missouri.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Last week, the DOD issued an instruction indicating that 
it's DOD policy that religious expression of service members 
should be accommodated as reiterated in the NDAA, and of 
course, the intent is that expression is not just a belief, but 
it is also in practice. So my question is, can--and I guess I 
will start with General Bailey--can you give me examples of an 
expression of religious belief, whether verbal or nonverbal, 
that is considered to be borderline inappropriate?
    General Bailey. Thank you, ma'am. I would think that a 
statement that would indicate that their religious beliefs are 
better or more--have more importance than another belief system 
and how they would phrase something like that and state that in 
some sort of way, that their god or their higher being, that 
they--who they call would be something that is the supreme over 
anything else, where maybe that would suppress another 
individual to think that they are not less in their faith, that 
would be a wrong statement to make in that sense.
    Mrs. Hartzler. Here is an example. So the respectful 
expression of an individual's conscious or religious belief 
while engaging in personal conversation in public space would 
be considered inappropriate. So if you said, you know, I 
believe I am a Christian because of this reason, and it--that 
would entail as a faith that you believe he is the Son of God 
and all of that. So you couldn't get into that without 
reprimand?
    General Bailey. No, ma'am. That is perfectly okay for that 
individual to state what they believe openly, understanding who 
is around the area; that is a private conversation within their 
own convictions of what they believe. When it is in conflict 
with those around, that is denouncing them or intruding on 
them, then there is a sensitivity there that we have to help 
that individual understand through training and through other 
means like that. But they are never told they cannot share 
their own personal faith of any sort.
    What we try to do, though, for the discipline purposes, is 
to understand that every faith has to be respected and 
dignified as well as those who have no faith whatsoever. So you 
must state your faith in a sense that, and hopefully they will, 
in a sense of that respect, but never suppressed in any sort of 
way.
    Mrs. Hartzler. I think that is a fine line, but it is 
important to be sensitive to others, but I just hope through 
your training, it doesn't result in suppression of that because 
that is very important.
    How about an invitation from one service member to another 
to attend a Bible study or other religious function? Would that 
be inappropriate?
    General Bailey. No, ma'am, not whatsoever.
    Mrs. Hartzler. A religious text or symbol that is visible 
in a commanding officer's office?
    General Bailey. No, ma'am. A commanding officer can have 
whatever he has on his desk, a Bible, or a Quran, or whatever 
it may be. That is up to him. That is his individual conviction 
whatever it may be.
    However, the chaplain, that is what our role is to advise 
the commander of the impact that would have or possibly any 
repercussions of that. The commander will make a wise decision 
at that point, understanding his or her role as a leader of all 
faiths in regard to religious accommodation or a lack of faith, 
whatever it may be, of the choices of the service members they 
lead. So that will be their individual right.
    Mrs. Hartzler. All right, thank you. My time is up.
    Mr. Wilson. Thank you, Ms. Hartzler.
    We now proceed to Congressman Tim Huelskamp of Kansas.
    Mr. Huelskamp. Thank you, Mr. Chairman.
    I certainly appreciate the ability to be here today. 
Appreciate the leadership of many on this committee.
    First question I would have, and I believe one of the 
colleagues here had asked, all of the above, in terms of 
sermons, whether or not folks should be able to preach, 
chaplains preach what they believe in a particular homily or 
sermon. And perhaps for the Right Reverend, are there any cases 
in which military has censored in advance anything you 
anticipated to preach?
    Rev. Magness. Neither has that been the case in my 
experience nor has it been the case with any of my chaplains 
who serve around this globe in all the services.
    Mr. Huelskamp. And as I understand from the others, that 
was a pretty firm commitment that that doesn't happen.
    But one instance I would like to refer to that I was 
worried about. And I believe General Bailey might be able to 
address this. January of 2012, every Catholic chaplain in the 
Army was forbidden to use one particular sentence in a sermon 
that every other Catholic across the country was allowed to 
hear. Do you not consider that censorship? And exactly can you 
describe how that decision was made by which that was a 
forbidden sentence in our--to be uttered by our Catholic 
chaplains?
    General Bailey. Yes, sir, thank you very much. At the time, 
if I believe, the endorsing agency for the Roman Catholic 
Church, a bishop had put out a letter to all to be read and 
sermonized and to all the Roman Catholic services throughout 
the military, the Department of Defense at that time. Our chief 
of chaplains at that time went to our Judge Advocate General, 
screening that letter as properly to be done to look at to make 
sure that it was in good order and discipline, that it would go 
against the chain of command, things of this nature that we are 
supposed to do to ensure that we do say the right things in 
that regard. And so through that means and through that 
mechanism, the one sentence that was said would be misconstrued 
and possibly from the judicial perspective in that sense from 
the chain of command, that information was fed back to the 
Roman Catholic Church to understand that that would not be. In 
fact, the Roman Catholic endorser met with the Secretary of the 
Army over that issue, and they discussed it, and it was agreed 
to that it was not to be used, as well as that every--the 
letter be read by everyone Catholic priest to the congregates 
in the sense that they all know what is being said by their 
endorser. So all the information was let out to the people.
    Mr. Huelskamp. Sir, the last sentence, not all information, 
the one sentence was stricken in every Catholic chaplain's 
homily in every military base in this country, as I understand. 
Do you not think that is censorship?
    General Bailey. No, sir, I don't. What I do believe is that 
we worked with the bishop's office to understand that that one 
sentence was not the intent of the bishop, what he was trying 
to say. And because the culture of the military being 
misconstrued against the President, against all what was going 
on at that time.
    Mr. Huelskamp. Sir, in my definition of censorship, when 
the government demands something not be said and forces that--
again, every Catholic in America heard that one sentence unless 
you were in an Army installation at a Catholic mass. So I am 
very frustrated by that, frustrated by your response. And the 
fact is I believe that is censorship. And I would love to 
discuss at length why that sentence was problematic to you and 
not problematic to every other Catholic in this country.
    And I yield back. Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Mr. Huelskamp.
    As we proceed, votes have been called.
    But fortunately, we have time for our last Member. I am 
delighted the number of persons who are here.
    And, Dr. Fleming, I agree with you that this issue is so 
important, we will be having another hearing, and it would fit 
right into when the companion regulations are released within 
the next 60 days. So this shall occur.
    And thank you again, Dr. Fleming, for your passion on this 
issue.
    We will be concluding with Congressman Alan Nunnelee of 
Mississippi.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    Thank you for having this hearing and for allowing me, a 
nonmember of the committee, to be part of it.
    Ms. Penrod, I want to follow up with a line of questions 
from Mr. Wittman specifically concerning the equal opportunity 
that--the Defense Equal Opportunity Management Institute. Mr. 
Wittman's questions were asked, and we get the same answer we 
continually get, and that is this is an isolated incident; it 
will not happen again. And then it happens again.
    Just a quick chronology of a couple of events. April of 
2013, a Pennsylvania Army Reserve unit: Evangelical Christians 
are examples of religious extremists; Catholics are equated to 
the Ku Klux Klan, Al Qaeda, and Hamas. Fall of 2013, Fort Hood, 
same institute: Christians are a threat to the Nation and any 
soldier that donates to these groups will be subject to 
punishment under the Uniform Code of Military Justice. October 
of 2013, similar statements at Camp Shelby. December of 2013, 
soldiers were told, don't use the word ``Christmas.'' Might be 
offensive. Army's investigated these. What is the purpose of 
these equal opportunity briefings? Who thought it was a good 
idea to have these briefings? And what has been done to those 
that made the decision to have such briefings?
    Ms. Penrod. Well, Congressman, again, I do not have the 
specifics of those cases. I will need to get that for the 
record for you.
    Mr. Nunnelee. Mr. Chairman, if we could have a follow-up 
hearing and have representatives from this Department of 
Defense Equal Opportunity Management Institute, I think it 
would be most helpful.
    Mr. Wilson. Thank you, Congressman Nunnelee.
    And as we proceed with the additional hearing, any 
suggestions anyone has, please let me know.
    Ms. Davis, do you have any concluding comments?
    Again, thank you all for being here. I think you can see 
the intelligence and appreciation of chaplains. That is why--
you had a record turnout in terms of Members of Congress who 
came who are profoundly and very positively concerned but also 
supportive of our chaplains in the U.S. military. We are 
adjourned.
    [Whereupon, at 10:34 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            January 29, 2014

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 29, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T6966.001
    
    [GRAPHIC] [TIFF OMITTED] T6966.002
    
    [GRAPHIC] [TIFF OMITTED] T6966.003
    
    [GRAPHIC] [TIFF OMITTED] T6966.004
    
    [GRAPHIC] [TIFF OMITTED] T6966.005
    
    [GRAPHIC] [TIFF OMITTED] T6966.006
    
    [GRAPHIC] [TIFF OMITTED] T6966.007
    
    [GRAPHIC] [TIFF OMITTED] T6966.008
    
    [GRAPHIC] [TIFF OMITTED] T6966.009
    
    [GRAPHIC] [TIFF OMITTED] T6966.010
    
    [GRAPHIC] [TIFF OMITTED] T6966.011
    
    [GRAPHIC] [TIFF OMITTED] T6966.012
    
    [GRAPHIC] [TIFF OMITTED] T6966.013
    
    [GRAPHIC] [TIFF OMITTED] T6966.014
    
    [GRAPHIC] [TIFF OMITTED] T6966.015
    
    [GRAPHIC] [TIFF OMITTED] T6966.016
    
    [GRAPHIC] [TIFF OMITTED] T6966.017
    
    [GRAPHIC] [TIFF OMITTED] T6966.018
    
    [GRAPHIC] [TIFF OMITTED] T6966.019
    
    [GRAPHIC] [TIFF OMITTED] T6966.020
    
    [GRAPHIC] [TIFF OMITTED] T6966.021
    
    [GRAPHIC] [TIFF OMITTED] T6966.022
    
    [GRAPHIC] [TIFF OMITTED] T6966.023
    
    [GRAPHIC] [TIFF OMITTED] T6966.024
    
    [GRAPHIC] [TIFF OMITTED] T6966.025
    
    [GRAPHIC] [TIFF OMITTED] T6966.026
    
    [GRAPHIC] [TIFF OMITTED] T6966.027
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 29, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T6966.028
    
    [GRAPHIC] [TIFF OMITTED] T6966.029
    
    [GRAPHIC] [TIFF OMITTED] T6966.030
    
    [GRAPHIC] [TIFF OMITTED] T6966.031
    
    [GRAPHIC] [TIFF OMITTED] T6966.032
    
    [GRAPHIC] [TIFF OMITTED] T6966.033
    
    [GRAPHIC] [TIFF OMITTED] T6966.034
    
    [GRAPHIC] [TIFF OMITTED] T6966.035
    
    [GRAPHIC] [TIFF OMITTED] T6966.036
    
    [GRAPHIC] [TIFF OMITTED] T6966.037
    
    [GRAPHIC] [TIFF OMITTED] T6966.038
    
    [GRAPHIC] [TIFF OMITTED] T6966.039
    
    [GRAPHIC] [TIFF OMITTED] T6966.040
    
    [GRAPHIC] [TIFF OMITTED] T6966.041
    
    [GRAPHIC] [TIFF OMITTED] T6966.042
    
    [GRAPHIC] [TIFF OMITTED] T6966.043
    
    [GRAPHIC] [TIFF OMITTED] T6966.044
    
    [GRAPHIC] [TIFF OMITTED] T6966.045
    
    [GRAPHIC] [TIFF OMITTED] T6966.046
    
    [GRAPHIC] [TIFF OMITTED] T6966.047
    
    [GRAPHIC] [TIFF OMITTED] T6966.048
    
    [GRAPHIC] [TIFF OMITTED] T6966.049
    
    [GRAPHIC] [TIFF OMITTED] T6966.050
    
    [GRAPHIC] [TIFF OMITTED] T6966.051
    
    [GRAPHIC] [TIFF OMITTED] T6966.052
    
    [GRAPHIC] [TIFF OMITTED] T6966.053
    
    [GRAPHIC] [TIFF OMITTED] T6966.054
    
    [GRAPHIC] [TIFF OMITTED] T6966.055
    
    [GRAPHIC] [TIFF OMITTED] T6966.056
    
    [GRAPHIC] [TIFF OMITTED] T6966.057
    
    [GRAPHIC] [TIFF OMITTED] T6966.058
    
    [GRAPHIC] [TIFF OMITTED] T6966.059
    
    [GRAPHIC] [TIFF OMITTED] T6966.060
    
    [GRAPHIC] [TIFF OMITTED] T6966.061
    
    [GRAPHIC] [TIFF OMITTED] T6966.062
    
    [GRAPHIC] [TIFF OMITTED] T6966.063
    
    [GRAPHIC] [TIFF OMITTED] T6966.064
    
    [GRAPHIC] [TIFF OMITTED] T6966.065
    
    [GRAPHIC] [TIFF OMITTED] T6966.066
    
    [GRAPHIC] [TIFF OMITTED] T6966.067
    
    [GRAPHIC] [TIFF OMITTED] T6966.068
    
    [GRAPHIC] [TIFF OMITTED] T6966.069
    
    [GRAPHIC] [TIFF OMITTED] T6966.070
    
    [GRAPHIC] [TIFF OMITTED] T6966.071
    
    [GRAPHIC] [TIFF OMITTED] T6966.072
    
    [GRAPHIC] [TIFF OMITTED] T6966.073
    
    [GRAPHIC] [TIFF OMITTED] T6966.074
    
    [GRAPHIC] [TIFF OMITTED] T6966.075
    
    [GRAPHIC] [TIFF OMITTED] T6966.076
    
    [GRAPHIC] [TIFF OMITTED] T6966.077
    
    [GRAPHIC] [TIFF OMITTED] T6966.078
    
    [GRAPHIC] [TIFF OMITTED] T6966.079
    
    [GRAPHIC] [TIFF OMITTED] T6966.080
    
    [GRAPHIC] [TIFF OMITTED] T6966.081
    
    [GRAPHIC] [TIFF OMITTED] T6966.082
    
    [GRAPHIC] [TIFF OMITTED] T6966.083
    
    [GRAPHIC] [TIFF OMITTED] T6966.084
    
    [GRAPHIC] [TIFF OMITTED] T6966.085
    
    [GRAPHIC] [TIFF OMITTED] T6966.086
    
    [GRAPHIC] [TIFF OMITTED] T6966.087
    
    [GRAPHIC] [TIFF OMITTED] T6966.088
    
    [GRAPHIC] [TIFF OMITTED] T6966.089
    
    [GRAPHIC] [TIFF OMITTED] T6966.090
    
    [GRAPHIC] [TIFF OMITTED] T6966.091
    
    [GRAPHIC] [TIFF OMITTED] T6966.092
    
    [GRAPHIC] [TIFF OMITTED] T6966.093
    
    [GRAPHIC] [TIFF OMITTED] T6966.094
    
    [GRAPHIC] [TIFF OMITTED] T6966.095
    
    [GRAPHIC] [TIFF OMITTED] T6966.096
    
    [GRAPHIC] [TIFF OMITTED] T6966.097
    
    [GRAPHIC] [TIFF OMITTED] T6966.098
    
    [GRAPHIC] [TIFF OMITTED] T6966.099
    
    [GRAPHIC] [TIFF OMITTED] T6966.100
    
    [GRAPHIC] [TIFF OMITTED] T6966.101
    
    [GRAPHIC] [TIFF OMITTED] T6966.102
    
    [GRAPHIC] [TIFF OMITTED] T6966.103
    
    [GRAPHIC] [TIFF OMITTED] T6966.104
    
    [GRAPHIC] [TIFF OMITTED] T6966.105
    
    [GRAPHIC] [TIFF OMITTED] T6966.106
    
    [GRAPHIC] [TIFF OMITTED] T6966.107
    
    [GRAPHIC] [TIFF OMITTED] T6966.108
    
    [GRAPHIC] [TIFF OMITTED] T6966.109
    
    [GRAPHIC] [TIFF OMITTED] T6966.110
    
    [GRAPHIC] [TIFF OMITTED] T6966.111
    
    [GRAPHIC] [TIFF OMITTED] T6966.112
    
    [GRAPHIC] [TIFF OMITTED] T6966.113
    
    [GRAPHIC] [TIFF OMITTED] T6966.114
    
    [GRAPHIC] [TIFF OMITTED] T6966.115
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            January 29, 2014

=======================================================================

      
             RESPONSE TO QUESTIONS SUBMITTED BY MR. WITTMAN

    Ms. Penrod. DEOMI's website, www.deomi.org, is a wealth of 
educational, training, and research material for Equal Opportunity and 
Equal Employment Opportunity practitioners assigned throughout the 
Department of Defense. The programming of the site allows a usage 
report to be generated that indicates the traffic flow to each page and 
the number of training products downloaded from the site.
    The site includes a wide selection of relevant human relations 
Advanced Distributed Learning (ADL) lessons online that anybody can 
take, anytime, from anywhere. In addition, DEOMI's website is where the 
Department will house standardized training template lessons on various 
human relations topics. These templates may be downloaded for use and 
will be accompanied by usage instructions provided by the Office of 
Diversity Management and Equal Opportunity. The availability of these 
standardized lesson templates will be communicated to the Services and 
Department as they become available through various established DOD 
communicating vehicles. The template topics include:
    <bullet>  Handling Dissident & Protest Activities
    <bullet>  Religious Accommodation
    <bullet>  Sexual Harassment
    <bullet>  Bystander Intervention
    <bullet>  Communicating Across Differences
    <bullet>  Prejudice & Discrimination
    <bullet>  Cultural Awareness
    DEOMI does not endorse the SPLC, or its list of hate groups, nor 
does DEOMI curriculum currently use any sources of information from the 
SPLC. In addition, DOD does not publish a list of hate groups.
    The DOD does not recognize or endorse any list of extremist or hate 
groups. EO practitioners will have access to the DOD-approved 
standardized templates based on the policy outlined in Department of 
Defense Instruction 1325.06, November 27, 2009, ``Handling Dissident 
and Protest Activities Among Members of the Armed Forces.''   [See page 
16.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 29, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. Since 2009, the U.S. Army has allowed three Sikh 
soldiers to wear turbans and maintain unshorn hair and beards as 
required by the Sikh religion. It is my understanding that under the 
Department's new religious accommodation guidelines, service members 
will need to request individual waivers on a case-by-case basis for 
each new assignment. Will Sikh service members have to remove their 
turbans, cut their hair, and shave their beards while their 
accommodation requests are pending?
    Ms. Penrod. The Army has enlisted or appointed several Soldiers in 
recent years that have been granted exceptions to uniform and grooming 
policy. Each of these requests was considered on a case by case basis. 
In August 2013, the Army DSC, G-1 granted exceptions/waivers for six 
soldiers; three soldiers of the Sikh faith for their beards, unshorn 
hair and turbans and three soldiers of the Jewish faith for their 
beards. These accommodation waivers are valid for the length of these 
soldiers' military service.
    However, Service members who are now granted an accommodation 
waiver retain it according to the specific elements of the respective 
Service approval. Upon significant changes in a Service member's duty 
(such as new assignment, transfer of duty station, deployment), at the 
discretion of the Secretary concerned, continuance of an approved 
accommodation must be requested. This initial approved accommodation 
remains in effect during the continuance re-evaluation process. DOD 
policy clearly supports accommodation in that it directs the 
Secretaries of the Military Department to disapprove cases only when 
there is a compelling governmental interest.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY DR. HECK

    Dr. Heck. Does the DOD currently have a presumptive ban on Sikhs 
displaying their articles of faith to include wearing of their 
religiously mandated turban and unshorn hair and beard?
    Ms. Penrod. There is no presumptive ban in DOD-level policy. 
Military personnel may request accommodation of individual expressions 
of sincerely held religious beliefs and each such request is determined 
by the respective Service on a case-by-case basis.
    Dr. Heck. While attending IET, are Sikhs required to give up 
turbans and shave their beards while they are awaiting a religious 
accommodation waiver? If a waiver is not granted and the Sikh refuses 
to shave or give up their turban, will they be processed for 
separation? And if so under what conditions?
    Ms. Penrod. While preparing our response, we determined that the 
Services have differing policies regarding approval of religious 
accommodations during the enlistment process. We are currently 
reviewing those policies and recruiting practices with the Services.
    Dr. Heck. During the hearing, Ms. Penrod suggested that a religious 
accommodation waiver was necessary with each new duty assignment in 
order to consider potential health and safety issues that may arise 
with each new unit or assignment. However, assuming that a Sikh is 
provided a religious accommodation while in IET and completes all 
training, to include MOPP training (properly fitting and sealing of a 
gas mask), what other health and safety issues are anticipated that 
necessitate a reconsideration of a religious accommodation waiver?
    Ms. Penrod. DOD anticipates that some career fields, such as 
aircraft maintenance on flight lines, would be included as health and 
safety issues. Length of hair/beard could be a concern when in close 
proximity to moving components. Headgear may be excluded on flight line 
due to a potential foreign object damage (FOD) hazard. Even though 
turban headgear is permitted, it is excluded on the flight-line.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. FLEMING

    Dr. Fleming. Section 533(b) of the FY2014 NDAA says, ``In 
prescribing such regulations, the Secretary shall consult with the 
official military faith-group representatives who endorse military 
chaplains.'' While testifying before the committee on January 29, 2014, 
Ms. Penrod indicated that the DOD was in compliance with the law in 
issuing the DODI 1300.17 as the official response to the FY2013 and 
FY2014 NDAA.
    Ms. Penrod. Yes, the Department is in compliance with the law.
    Dr. Fleming. Could the DOD please provide the dates, times, names 
of the groups the DOD met with, topics discussed, and other pertinent 
details regarding any such meetings DOD had with official military 
faith-group representatives in revising the 1300.17 DODI?
    Ms. Penrod. The revision of Department of Defense Instruction 
1300.17, Accommodation of Religious Practices in the Military 
Departments was briefed during the 2013 Armed Forces Chaplains (AFCB) 
Board Endorsers Conference. At the January 16, 2014 AFCB Conference, 
attendees were offered the opportunity to present their concerns to a 
panel consisting of the Principal Deputy of Military and Personnel 
Policy and the Service Chiefs of Chaplains.
    Topics discussed included: the status of Chaplain Corps ministry in 
a pluralistic environment; strategic plans for communication with 
endorsers; the accession and retention of chaplains; and the support 
and protection of religious freedoms.

American Baptist Home Mission Societies
American Council of Christian Churches
Anglican Church in America, The
Assemblies of God, General Council of
Assembly of Canonical Orthodox Bishops in North America
Associated Gospel Churches
Bible Fellowship Church (NAE)
Calvary Baptist Church (All Points Baptist Mission)
Calvary Chapel of Costa Mesa
Central Conference of American Rabbis (JWB)
Chaplaincy Full Gospel Churches
Christian and Missionary Alliance, The
Christian Church (Disciples of Christ)
Christian Churches and Churches of Christ
Church of God (Cleveland, Tennessee) (NAE)
Church of God Ministries
Church of God of Prophecy
Church of Jesus Christ of Latter-Day Saints, The (LDS)
Church of Lutheran Brethren
Church of the Nazarene
Coalition of Spirit-Filled Churches Inc.
Congregational Methodist Church, The
Conservative Baptist Association of America (NAE)
Convocation of Anglicans in North America, The (CANA/ACNA)
Cooperative Baptist Fellowship, Inc
Episcopal Missionary Church
Evangelical Congregational Church
Evangelical Lutheran Conference & Ministerium
Federated Orthodox Catholic Churches International
First Baptist Church of Kingstowne
Free Methodist Church--USA
Full Gospel Fellowship of Churches and Ministers International
Fundamental Baptist Fellowship Int'l (John Vaughn is the endorser)
Grace Brethern Churchs, The Fellowship of
Grace Churches Interational
International Christian Church (CFGC)
International Church of the Foursquare Gospel
National Assoc Council Armed Forces
National Association of Evangelicals
North American Mission Board (SBC)
Orthodox Anglican Church
Orthodox Church in America
Plymouth Brethren
Presbyterian and Reformed Commision on Chaplains and Military Personnel
Presbyterian Church (U.S.A.), The
Regular Baptist Churches
Russian Orthodox Church Outside Russia
Unitarian Universalist Association, The
United Church of Christ
United Methodist Church, The
United Pentecostal Church International

    Dr. Fleming. While testifying, Ms. Penrod cited a January 16, 2014, 
meeting with over 100 military faith group representatives as evidence 
for DOD compliance with the above-mentioned requirement within the 
FY2014 NDAA. My understanding of the January 16th meeting, however, is 
that this was an annual meeting at which the DODI 1300.17 was not 
discussed nor did the DOD request the input of the faith group 
representatives in attendance. Please clarify as to how the January 16 
meeting, or any other consultations the committee should be aware of, 
puts the DOD in compliance with the requirement within the FY2014 NDAA.
    Ms. Penrod. A panel consisting of the Principal Deputy of Military 
and Personnel Policy and the Service Chiefs of Chaplains consulted with 
132 official military faith-group representatives from over 50 faith 
group religious organizations and solicited their views concerning the 
pending changes in policy.
    All recommendations from these official military faith-group 
representatives received before, during and after the conference were 
considered in the revision of DODI 1304.28 which pertains to the 
guidance for the appointment of chaplains and 1300.17, even though no 
specific issues concerning the latter were expressed by faith group 
representatives.
    Dr. Fleming. Please clarify the input official military faith-group 
representatives provided the DOD as it revised the 1300.17 DODI, 
including examples of the input provided, an explanation of where in 
the revised DODI such input is reflected, and a description of the 
process used in incorporating such input into the revised DODI.
    Ms. Penrod. The revision of Department of Defense Instruction 
1300.17, Accommodation of Religious Practices in the Military 
Departments was briefed during the 2013 Armed Forces Chaplains Board 
Endorsers Conference As part of the registration process for the 2014 
Armed Forces Chaplains Board Endorsers Conference, official military 
faith-group representatives were offered the opportunity to submit any 
concerns or questions regarding religious issues. They were also 
offered the opportunity to present their concerns during the panel 
discussion during the conference. All inputs received from them prior 
to and during the 2014 conference regarded chaplains and did not 
directly apply to DODI 1300.17.
    Dr. Fleming. DOD has indicated that DODI 1304.28 regarding 
chaplains is currently under review and that the revised DODI will 
incorporate section 533(b), the consultation requirement. Please 
explain the process DOD will be using to gather the input of official 
military faith-group representatives and how it will be incorporating 
such input into the 1304.28 DODI.
    Ms. Penrod. DODI 1304.28, Guidance for the Appointment of Chaplains 
for the Services, provides specific guidance for chaplains. All input 
received from official military faith-group representatives regarding 
chaplains, that was received before, during or after the 2014 Armed 
Forces Chaplains Board Military Chaplain Endorser Conference, were 
considered in the revision to DODI 1300.28.
    Dr. Fleming. The 1300.17 DODI reads that: ``The DOD places a high 
value on the rights of members of the Military Services to observe the 
tenets of their respective religions or to observe no religion at 
all.'' It also explains the process for a religious accommodation 
request. Does the Department consider an atheist or humanist request as 
a legitimate religious accommodation request as defined by the 1300.17 
DODI? Please describe how the 1300.17 DODI is able to accommodate the 
requests filed for those who do not profess any faith, while 
simultaneously protecting the religious freedom of chaplains and 
service members who express religious beliefs through speech and 
practice, on or off duty.
    Ms. Penrod. Department of Defense Instruction (DODI) 1300.17, 
Accommodation of Religious Practices in the Military Departments, does 
not include guidance for non-religious requests for accommodation. Non-
religious requests for accommodation are processed through the chain of 
command in accordance with the standard for what is religious as 
defined in DODI 1300.06, Conscientious Objectors.
    Dr. Fleming. Religious expression includes more than just an 
outward display of clothing, certain grooming practices, or dress; yet, 
the 1300.17 revised DODI appears to largely focus on religious 
accommodation for specific clothing or jewelry displayed on one's 
person. While I appreciate that the Department is taking a close look 
at these apparel regulations, this Instruction does not address the 
censorship of religious speech and fear of reprisal for such speech 
that the FY13 and FY14 NDAA intended to address. Please explain where 
in this revised DODI protection is provided for a service member's 
freedom to discuss, explain, mention, and reference their specific 
faith tenets either in private or in public while completing an 
official military duty or more broadly as a member of the armed 
services, as intended by the FY13 and FY14 NDAA?
    Ms. Penrod. The most recent publication of Department of Defense 
Instruction (DODI) 1300.17, Accommodation of Religious Practices in the 
Military Departments, paragraph 4b, protects this freedom for all 
Service members and DODI 1304.28, Guidance for the Appointment of 
Chaplains, paragraphs 5.2.1 and 5.2.2, specifically expands this 
protection to chaplains while performing their official duties 
according to the tenets of their faith.
    Dr. Fleming. The intent of Congress in the FY13 and FY14 NDAA was 
not that religious expression through speech and practice be subject to 
a request for accommodation, rather that the default position for DOD 
policy should afford respect for religious expression and religious 
practice by service members. The reported incidents of censoring speech 
and religious practice are a DOD problem, not the burden of service 
members to prove why they should be able to speak or honor their faith 
both within and outside a chaplain service. The revised 1300.17 DODI 
further clarifies the process for seeking religious accommodation on 
matters pertaining to dress and grooming. Is it DOD policy that other 
aspects of religious expression such as religious or moral speech must 
also be submitted in a request for accommodation? If so, why?
    Ms. Penrod. No, a request for accommodation for religious or moral 
speech is not required. The First Amendment guarantees freedom of all 
speech to include religious or moral speech and Title 10, Chapter 47, 
Uniform Code of Military Justice, Subchapter 10--Punitive Articles 
defines the parameters associated with inappropriate speech and actions 
that threaten good order and discipline.
    Dr. Fleming. In the Department's revisions to the 1300.17 DODI, you 
chose to define ``substantial burden'' in a way that forces commanders 
to make theological judgments about the importance of service member's 
religious practices. Courts have overwhelmingly rejected this approach 
noting that government officials lack both authority and competence to 
make such judgments. DOD's definition of ``substantial burden'' runs 
contrary to Religious Freedom Restoration Act and the Free Exercise and 
Establishment Clauses of the First Amendment. The definition will both 
limit service members' liberty and invite litigation. Can the DOD 
explain why this definition was rewritten rather than adopting the 
standard that has been favored by the courts and has protected 
religious liberty for all Americans for two decades?
    Ms. Penrod. Congress used the term ``substantially burden'' in 
enacting the Religious Freedom Restoration Act in 1993. Congress did 
not define the term nor has it done so since enactment. The 
department's definition of ``substantially burden'' attempts to give a 
reasonable interpretation of the term consistent with court opinions. 
It is possible that the Supreme Court may provide more definitive 
guidance when it decides Sebelius v. Hobby Lobby Stores, Inc.
    Dr. Fleming. A number of media reports have indicated that the 
religious liberty of service members is being stifled within the 
services, yet the DOD and the various services have denied that a 
problem exists. Please describe the process used in reviewing the types 
of cases being reported in the media. How is the DOD making sure that 
all relevant facts are being reported up the chain of command? Please 
provide members of the House Armed Services Committee with pertinent 
facts and explanations of some of the incidents being reported, 
including explanations of corrective actions taken.
    Ms. Penrod. There are multiple avenues (e.g. Chain of Command, 
Chaplains, Military Equal Opportunity, Inspector General) of recourse 
for individual Service members who believe their religious liberty is 
being limited. Attached are the facts associated with incidents alleged 
in the Family Research Council, ``Clear and Present Danger'' report. As 
you can see from the facts provided, Service leaders champion the 
protection of religious liberty for all Service members.
    Dr. Fleming. Recent media reports and testimony from outside 
organizations point toward a trend of a work environment that is 
hostile against religious expression within the military. What has the 
Department done to ensure that service members are fully aware of their 
rights under the First Amendment to express religious beliefs without 
fear of career reprisals, censorship, reprimands, or action being taken 
against them under the UCMJ?
    Ms. Penrod. The Department published Department of Defense 
Instructions 1300.17, Accommodation of Religious Practices in the 
Military Departments, and 1304.28, Guidance for the Appointment of 
Chaplains, both of which include language regarding individual 
expressions of religious beliefs. The Military Departments are updating 
their Service regulations and policies to implement this guidance.
    Dr. Fleming. A number of media reports have indicated that the 
religious liberty of service members is being stifled within the 
services, yet the DOD and the various services have denied that a 
problem exists. As an example, LTC Kenneth Reyes posted an article on 
the history and context of the phrase ``No atheists in foxholes'' on 
the Chaplains Corner blog at Joint Base Elmendorf-Richardson. The 
article was initially removed from the blog, only later to be 
reinstated. Please provide the facts surrounding this incident and 
describe the process used in reviewing this case. In addition, please 
provide an explanation of the corrective action taken. Was there an 
acknowledgement from commanders that taking down this blog post was a 
violation of the First Amendment?
    Ms. Penrod. Joint Base Elmendorf-Richardson (JBER) Wing Chaplain, 
Lt Col Kenneth Reyes, wrote an article for the ``Chaplain's Corner'' 
feature of the base newspaper entitled ``No atheists in foxholes: 
Chaplains gave all in World War II.'' The article was posted on the 
official base web page on July 17, 2013, and distributed on base via 
newspaper on July 19, 2013.
    On July 23, the 673d Air Base Wing Commander received a complaint 
regarding the article. In order to ensure the appropriate balance 
between the author's free exercise of religion and the prohibition 
against government establishment of religion, the Commander directed 
the article be removed for review. After reviewing the article, the 
Commander had the article re-posted on the web page. A disclaimer was 
added to the web page in order to communicate that all ``Chaplain's 
Corner'' featured articles are those of the author and are not endorsed 
by the government. The ``Chaplain's Corner'' continues to be a weekly 
part of the JBER web page.
    Dr. Fleming. While testifying, Ms. Penrod cited a January 16, 2014, 
meeting with over 100 military faith group representatives as evidence 
for DOD compliance with the above-mentioned requirement within the 
FY2014 NDAA. My understanding of the January 16th meeting, however, is 
that this was an annual meeting at which the DODI 1300.17 was not 
discussed nor did the DOD request the input of the faith group 
representatives in attendance. Please clarify as to how the January 16 
meeting, or any other consultations the committee should be aware of, 
puts the DOD in compliance with the requirement within the FY2014 NDAA.
    Admiral Tidd. During the January 16, 2014 meeting, I attended as 
the Navy Chief of Chaplains and was one of several panel members from 
the Department of Defense who discussed a range of topics with 
representatives of various faith groups. However, I respectfully defer 
to the Office of the Secretary of Defense on explaining how the 
Department of Defense fulfilled its obligations under the FY2014 NDAA. 
My personal observation after nearly five years as the Deputy Chief of 
Chaplains and the Chief of Chaplains, including 18 months as the chair 
of the Armed Forces Chaplains Board, is that we have a collegial 
relationship with the ecclesiastical endorsing agents representing our 
chaplains and that we have had open and productive discussions on 
religious liberty issues with them.
    Dr. Fleming. A number of media reports have indicated that the 
religious liberty of service members is being stifled within the 
services, yet the DOD and the various services have denied that a 
problem exists. Please describe the process used in reviewing the types 
of cases being reported in the media. How is the DOD making sure that 
all relevant facts are being reported up the chain of command? Please 
provide members of the House Armed Services Committee with pertinent 
facts and explanations of some of the incidents being reported, 
including explanations of corrective actions taken.
    Admiral Tidd. The investigative approach to any given allegation 
will generally be driven by the particular facts at issue. For example, 
some religious liberty matters may be categorized as equal opportunity 
issues addressed under the Department of Navy's equal opportunity 
policy or through the complaint of wrongs process. Alternatively, a 
complaint regarding religious liberty dealing with abuse of command 
authority might be addressed through a command investigation, through 
the Navy Inspector General, or, if criminal wrongdoing is alleged or 
suspected, through the Naval Criminal Investigative Service, depending 
on the facts of the complaint.
    With regard to Navy chaplains, on September 27, 2013, I provided 
written guidance reminding Navy chaplains that they may contact their 
senior supervisory chaplains, the Chief of Chaplains office, or their 
respective ecclesiastical endorsing agents (who have direct access to 
the Chief of Chaplains), if they feel that they are being required to 
act in a manner contrary to the tenets of their religious 
organizations. On October 3, 2013, I provided a copy of that letter to 
the ecclesiastical endorsing agents. Additionally, at numerous training 
venues (attended by over 60% of Navy chaplains), my deputy and I have 
discussed options for resolving religious liberty concerns.
    Dr. Fleming. While testifying, Ms. Penrod cited a January 16, 2014, 
meeting with over 100 military faith group representatives as evidence 
for DOD compliance with the above-mentioned requirement within the 
FY2014 NDAA. My understanding of the January 16th meeting, however, is 
that this was an annual meeting at which the DODI 1300.17 was not 
discussed nor did the DOD request the input of the faith group 
representatives in attendance. Please clarify as to how the January 16 
meeting, or any other consultations the committee should be aware of, 
puts the DOD in compliance with the requirement within the FY2014 NDAA.
    General Bailey. (BG) Bailey was not in attendance at the meeting 
with Endorsers on January 16, 2014 and therefore is unable to comment 
on the event. The event was sponsored and facilitated by the Armed 
Forces Chaplain Board, which falls under the Office of the Secretary of 
Defense. We are not aware of any other consultations where this issue 
may have been addressed.
    Dr. Fleming. A number of media reports have indicated that the 
religious liberty of service members is being stifled within the 
services, yet the DOD and the various services have denied that a 
problem exists. Please describe the process used in reviewing the types 
of cases being reported in the media. How is the DOD making sure that 
all relevant facts are being reported up the chain of command? Please 
provide members of the House Armed Services Committee with pertinent 
facts and explanations of some of the incidents being reported, 
including explanations of corrective actions taken.
    General Bailey. The Army Office of the Chief of Chaplains routinely 
monitors the media for reports that are relevant to the Chaplain Corps. 
If the Chief of Chaplains becomes aware of media reports of challenges 
to or violations of religious liberty, religious expression, or 
religious accommodation, he informs key Army leaders and staff, and 
requests more information from the installation or unit involved to 
confirm or deny the report and determine if any action is required from 
the Chaplain Corps. Commanders are responsible for investigating and 
responding to any credible reports of misconduct. Pertinent facts and 
explanations of reported incidents can be provided on a case-by-case 
basis.
    Dr. Fleming. While testifying, Ms. Penrod cited a January 16, 2014, 
meeting with over 100 military faith group representatives as evidence 
for DOD compliance with the above-mentioned requirement within the 
FY2014 NDAA. My understanding of the January 16th meeting, however, is 
that this was an annual meeting at which the DODI 1300.17 was not 
discussed nor did the DOD request the input of the faith group 
representatives in attendance. Please clarify as to how the January 16 
meeting, or any other consultations the committee should be aware of, 
puts the DOD in compliance with the requirement within the FY2014 NDAA.
    General Page. A panel consisting of the Principal Deputy of 
Military and Personnel Policy and the Service Chiefs of Chaplains 
consulted with 132 official military faith-group representatives from 
over 50 faith group religious organizations and solicited their views 
concerning the pending changes in policy.
    All recommendations from these official military faith-group 
representatives received before, during and after the conference were 
considered in the revision of DODI 1304.28 which pertains to the 
guidance for the appointment of chaplains and 1300.17, even though no 
specific issues concerning the latter were expressed by faith group 
representatives.
    Dr. Fleming. A number of media reports have indicated that the 
religious liberty of service members is being stifled within the 
services, yet the DOD and the various services have denied that a 
problem exists. Please describe the process used in reviewing the types 
of cases being reported in the media. How is the DOD making sure that 
all relevant facts are being reported up the chain of command? Please 
provide members of the House Armed Services Committee with pertinent 
facts and explanations of some of the incidents being reported, 
including explanations of corrective actions taken.
    General Page. There are multiple avenues (e.g. Chain of Command, 
Chaplains, Military Equal Opportunity, Inspector General) of recourse 
for individual Service members who believe their religious liberty is 
being limited. Attached are the facts associated with incidents alleged 
in the Family Research Council, ``Clear and Present Danger'' report. As 
you can see from the facts provided, Service leaders champion the 
protection of religious liberty for all Service members.
    Dr. Fleming. A number of media reports have indicated that the 
religious liberty of service members is being stifled within the 
services, yet the DOD and the various services have denied that a 
problem exists. As an example, LTC Kenneth Reyes posted an article on 
the history and context of the phrase ``No atheists in foxholes'' on 
the Chaplains Corner blog at Joint Base Elmendorf-Richardson. The 
article was initially removed from the blog, only later to be 
reinstated. Please provide the facts surrounding this incident and 
describe the process used in reviewing this case. In addition, please 
provide an explanation of the corrective action taken. Was there an 
acknowledgement from commanders that taking down this blog post was a 
violation of the First Amendment?
    General Page. Chaplain, Lt Colonel, Ken Reyes, Wing Chaplain at 
Joint Base Elmendorf-Richardson (JBER), wrote an article entitled ``No 
atheists in foxholes: Chaplains gave all in World War II'', which was 
printed in the base newspaper, ``The Arctic Warrior,'' and distributed 
on July 19, 2013. The same article was posted on the JBER web page on 
July 17, 2013, in the ``Chaplain's Corner'' section. The wing commander 
directed that the article be removed from the website for review after 
receiving a complaint regarding the article. The wing commander 
reviewed the content of the article because at that time all 
information published on the JBER official web page implied the 
approval and endorsement of the wing commander. The wing commander 
wanted to ensure the information on the web page was balanced 
appropriately between the author's free exercise of religion and the 
possible appearance of the wing commander endorsing a religion.
    After thorough review, the wing commander had the article re-posted 
to the web page with the following disclaimer:
    ``The `Chaplain's Corner' offers perspectives to enhance spiritual/
religious resiliency in support of Air Force and Army Comprehensive 
Fitness programs. Comments regarding specific beliefs, practices, or 
behaviors are strictly those of the author and do not convey 
endorsement by the U.S. Government, the Department of Defense, the 
Army, the Air Force, Joint Base Elmendorf-Richardson, or the 673d Air 
Base Wing.'' The ``Chaplain's Corner'' continues to be a weekly part of 
the JBER web page.
    Following this event, the Air Force Chief of Staff (CSAF) directed 
the Chief of Chaplains to prepare a card to help commanders make a more 
deliberate response to complaints from outside groups and prevent 
``knee-jerk'' reactions. This card was sent to commanders on December 
11, 2013, and is briefed to every wing and group commander course. CSAF 
also directed the creation of a ``help line'' commanders can call, if 
needed, to get answers directly from Air Staff on religious freedom 
questions. The card provides a checklist and a direct line to a team of 
chaplains and JAGs who are prepared to answer their questions. It has 
been well-received by commanders.
    In addition, the ``Religious Freedom Focus Day'' hosted by the 
CSAF, provided recommendations to the CSAF in four areas: 1) policy, 2) 
educating the force, 3) handling complaints, 4) strategic messaging. 
These recommendations were approved by the CSAF and assigned to Offices 
of Responsibility with suspense dates not later than July 1.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. The conscience protections as passed by Congress in 
Sec. 533 of the NDAA for FY 2013 and amended in the NDAA for FY 2014 
read:
    Unless it could have an adverse impact on military readiness, unit 
cohesion, and good order and discipline, the Armed Forces shall 
accommodate individual expressions of belief of a member of the armed 
forces reflecting the sincerely held conscience, moral principles, or 
religious beliefs of the member and, in so far as practicable, may not 
use such beliefs use such expression of belief as the basis of any 
adverse personnel action, discrimination, or denial of promotion, 
schooling, training, or assignment.
    Under current military policy, what meaning, if any, is ascribed to 
the following phrases: ``adverse impact,'' ``military readiness,'' 
``unit cohesion,'' ``good order and discipline.''
    Ms. Penrod. Congress chose not to define these terms when it 
enacted, and amended, section 533. Similarly, these terms are not 
specifically defined in DODI 1300.17. The Department of Defense takes 
very seriously its responsibility to safeguard the First Amendment 
rights of all military personnel. We strive to provide accommodations 
for requests of individual expressions of sincerely held religious 
beliefs, to include accommodations associated with grooming standards, 
religious apparel, worship practices, and accommodation of dietary and 
medical practices, unless such accommodation would have an adverse 
impact on military readiness, unit cohesion, and good order and 
discipline. In general, ``adverse impact'' means having a negative 
effect on something, ``military readiness'' means the ability of 
military forces to fight and also to meet demands of all assigned 
missions, ``unit cohesion'' means the relationship among members of a 
unit that results in the measure of the units efforts being greater 
than the sum of the efforts of each individual in the unit, and ``good 
order in discipline'' means that the members of a unit comply with all 
orders, rules, policies, etc. in an acceptable manner.
    Mr. Forbes. Did President Obama's signing statement, made on 
January 3, 2013, on the passage of the NDAA for FY 2013 calling the 
conscience protections unnecessary and ill-advised, impact DOD's 
development of the new regulation? If so, how? If not, why?
    Ms. Penrod. The revisions to DODI 1300.17, The Accommodation of 
Religious Practices Within the Military Services, were not impacted by 
the President's statement.
    Mr. Forbes. Did President Obama's signing statement, made on 
January 3, 2013, on the passage of the NDAA for FY 2013 calling the 
conscience protections unnecessary and ill-advised, impact DOD's 
development of the new regulation? If so, how? If not, why?
    Ms. Penrod. The revisions to DODI 1300.17, The Accommodation of 
Religious Practices Within the Military Services, were not impacted by 
the President's statement.
    Mr. Forbes. Revised DOD Instruction 1300.17, issued on January 22, 
2014, incorporates the Religious Freedom Restoration Act (RFRA). 
However, it undermines the purpose of RFRA by redefining a well-
grounded constitutional term of art, ``substantial burden.'' Why did 
DOD alter this time-tested standard?
    Ms. Penrod. Department of Defense policy protects the civil 
liberties of its personnel, including religious practices to the 
greatest extent possible when consistent with military requirements. 
The definition was rewritten to shift the burden of proof for 
justifying the accommodation request from the individual Service member 
to the commander considering the request. In doing so, the standard for 
disapproval was limited to only those cases where the commander 
determines that approval of the request would adversely mission 
accomplishment.
    Mr. Forbes. What avenues of review are available to a service 
member who believes her expressions of a religious belief have 
wrongfully be determined to interfere with good order and discipline 
and is facing administrative or disciplinary action? Is it possible 
that military culture discourages a service member from challenging a 
commander's decision in the current channels available to service 
members? What notice, if any, is provided to the Chiefs of Chaplains 
when a service member faces administrative or disciplinary action for 
the expression of religious belief?
    Ms. Penrod. Department of Defense and Military Department policies 
have established standards for appeal by Service members facing 
administrative and/or disciplinary actions. This process ensures a 
Service member's right to appeal a commander's decision through their 
chain of command. The Service Chief of Chaplains may be notified if 
such actions involve a chaplain within the Service.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
